<html>
<title> - TRAVEL AND TOURISM: A SMALL BUSINESS ANGLE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
               TRAVEL AND TOURISM: A SMALL BUSINESS ANGLE

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON ECONOMIC GROWTH, TAX, AND CAPITAL ACCESS

                                 OF THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                              MAY 8, 2018

                               __________
                               
                               

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                               
                               
                               

            Small Business Committee Document Number 115-070
             Available via the GPO Website: www.govinfo.gov
             
             
             
             
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 29-917                  WASHINGTON : 2018                  
             
             
             
             
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        TRENT KELLY, Mississippi
                             ROD BLUM, Iowa
                         JAMES COMER, Kentucky
                 JENNIFFER GONZALEZ-COLON, Puerto Rico
                    BRIAN FITZPATRICK, Pennsylvania
                         ROGER MARSHALL, Kansas
                      RALPH NORMAN, South Carolina
                           JOHN CURTIS, Utah
               NYDIA VELAZQUEZ, New York, Ranking Member
                       DWIGHT EVANS, Pennsylvania
                       STEPHANIE MURPHY, Florida
                        AL LAWSON, JR., Florida
                         YVETTE CLARK, New York
                          JUDY CHU, California
                       ALMA ADAMS, North Carolina
                      ADRIANO ESPAILLAT, New York
                        BRAD SCHNEIDER, Illinois
                                 VACANT

               Kevin Fitzpatrick, Majority Staff Director
      Jan Oliver, Majority Deputy Staff Director and Chief Counsel
                     Adam Minehardt, Staff Director
                     
                     
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Dave Brat...................................................     1
Hon. Dwight Evans................................................     2

                               WITNESSES

Ms. Rita McClenny, President and CEO, Virginia Tourism 
  Corporation, Richmond, VA......................................     3
Mr. Steve Shur, President, Travel Tech, Arlington, VA............     5
Mr. Cam Brensinger, Founder and CEO, NEMO Equipment, Inc., Dover, 
  NH, testifying on behalf of the Outdoor Industry Association...     7
Ms. Jagruti Panwala, President and CEO, Wealth Protection 
  Strategies, Bensalem, PA, testifying on behalf of the Asian 
  American Hotel Owner's Association.............................     9

                                APPENDIX

Prepared Statements:
    Ms. Rita McClenny, President and CEO, Virginia Tourism 
      Corporation, Richmond, VA..................................    20
    Mr. Steve Shur, President, Travel Tech, Arlington, VA........    25
    Mr. Cam Brensigner, Founder and CEO, NEMO Equipment, Inc., 
      Dover, NH, testifying on behalf of the Outdoor Industry 
      Association................................................    35
    Ms. Jagruti Panwala, President and CEO, Wealth Protection 
      Strategies, Bensalem, PA, testifying on behalf of the Asian 
      American Hotel Owner's Association.........................    41
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.


               TRAVEL AND TOURISM: A SMALL BUSINESS ANGLE

                              ----------                              


                          TUESDAY, MAY 8, 2018

                  House of Representatives,
               Committee on Small Business,
                   Subcommittee on Economic Growth,
                                   Tax, and Capital Access,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 11:00 a.m., in 
Room 2360, Rayburn House Office Building. Hon. Dave Brat 
[chairman of the Subcommittee] presiding.
    Present: Representatives Brat, Chabot, Kelly, Fitzpatrick, 
Curtis, Evans, and Clarke.
    Chairman BRAT. Good morning. I would like to call this 
meeting to order.
    Welcome to everyone for this great Committee meeting.
    With the weather warming up and school is about to let out, 
many American families will take to the road in the coming 
weeks to go on vacation and explore the beautiful sights our 
nation has to offer.
    Although this has many Americans taking time off from work, 
millions of Americans see the end of the school year and the 
rising temperatures as a sign that their work is about to 
significant pick up.
    In 2017, domestic and international travelers spent over $1 
trillion in the United States.
    According to the U.S. Travel Association, an impressive 83 
percent of businesses in the travel and tourism industries are 
considered small businesses. Eighty-three percent. And while 
small businesses are frequently the ones that take you from 
destination to destination, or provide American families for a 
place to stay on the road, the economic impact of the travel 
and tourism industries positively impacts small businesses in 
other industries as well.
    For example, an estimated $1 of every $4 spent at 
restaurants in this country are due to travel and tourism. 
Small businesses in a variety of industries depend on travel 
and tourism to keep the lights on and to pay their employees.
    The recently enacted Tax Cuts and Jobs Act, which reduced 
tax rates and complexity for businesses of all sizes, has 
already positively impacted the travel and tourism industries.
    According to the Department of Labor, the travel industry 
created over 17,000 jobs just in the first 2 months of 2018, 
which is 50 percent higher than the amount of jobs created by 
the travel industry in the first 2 months of 2017.
    Equally important, tax reform has provided small business 
owners with the resources to hire new employees and reward 
existing employees in the form of bonuses or raises, as well as 
the opportunity to invest resources back into their businesses.
    This week is National Travel and Tourism Week. Thus, you 
are all here with us. Thank you for coming.
    We have put together a distinguished panel to discuss the 
economic impact of the travel and tourism industries and how 
the private sector and the public sector can work together to 
ensure the travel and tourism industries in the United States 
continue to thrive.
    I thank you all for being here this morning, and I yield to 
the Ranking Member for his opening remarks.
    Mr. EVANS. Good morning. Thank you, Mr. Chairman.
    The travel and tourism sector plays a critical role in the 
U.S. economy and is an indispensable part of the industry 
ecosystem which makes up the nation's economic fabric. In 2017, 
the tourism sector generated 2.4 trillion in economic output 
and supported 15.6 million American jobs in a plethora of 
industries. Tourism is also one of the few sectors operating a 
multi-billion trade surplus.
    Small businesses are an essential part of the travel and 
tourism sector. Small companies in this sector are powerful job 
creators providing livelihoods and pathways out of poverty for 
millions across gender, age, and skill levels.
    For instance, travel dependent leisure and hospitality is 
the largest small business employer in the United States. 
Furthermore, research indicates that tourism has almost twice 
as many women employees as other sectors and employs young 
people at roughly twice the rate of other industries.
    Not only are small businesses companies or drivers of 
tourism travel, they also reap major benefits from the 
industry. The industry has grown significantly in the last 25 
years, but when tourism stops flocking to the United States, 
people flying, driving domestically, they also cease spending 
money at hotels, restaurants, and small merchants.
    The travel and tourism sector is one place where we can 
invest and get significant returns for entrepreneurs for the 
United States' economy.
    Why are international travelers visiting the United States? 
There are numerous potential reasons why they are. Besides our 
immigration and visa policy, we must also invest in our 
national transportation infrastructure and park system. Without 
safe roads, bridges, rails, cars, few domestic trips will be 
made to the uniquely American park and historical sites. 
Promoting tourism is not only good for our people, it also 
fosters business growth and social mobility and encourages 
economic growth.
    I might add that I represent the City of Philadelphia, 
which includes Philadelphia Historical District, the birthplace 
of the nation and the first World Heritage City in the United 
States as designated by the Organization of World Heritage 
Cities in 2015.
    As if you need more reason to visit the City of Brotherly 
Love and Sisterly Affection, experiencing our growth and 
experiencing the small business economic system just adds 
another.
    I look forward to today's hearing and thank the witnesses. 
And I yield back the balance of my time.
    Thank you, Mr. Chairman.
    Chairman BRAT. Thank you very much. I did not put a plug in 
for my own state. You beat me to the punch on that. That is 
pretty good.
    I think you all probably know how the format works here.
    If Committee members have an opening statement prepared, I 
ask that it be submitted for the record.
    I would like to take a moment to explain the timing lights 
for you. You will each have 5 minutes to deliver your testimony 
and then we will go through a round of questions or two.
    The light will start out green. When you have 1 minute 
remaining, the light will turn yellow. Finally, at the end of 
the 5 minutes it will turn red. It is usually an indicator that 
your time is coming close to an end. I ask you try to adhere to 
that limit. If you go a little over that is fine today. And 
with that, we will begin.
    I think I will just introduce you one at a time, and we 
will just go in the order of introduction, and your 5 minutes 
will begin as soon as I am done with the introductions.
    Our first witness today is Ms. Rita McClenny, President and 
CEO of the Virginia Tourism Corporation. She oversees the 
agency's annual budget and staff, which is responsible for 
tourism promotion in the State of Virginia. Many of you may 
know that Virginia Tourism Corporation through its famous 
slogan ``Virginia is for Lovers,'' which has been attracting 
tourists to Virginia for almost 50 years.
    And so thank you very much, Rita, for being with us today. 
And you may begin.

   STATEMENTS OF RITA MCCLENNY, PRESIDENT AND CEO, VIRGINIA 
 TOURISM CORPORATION; STEVE SHUR, PRESIDENT, TRAVEL TECH; CAM 
  BRENSINGER, FOUNDER AND CEO, NEMO EQUIPMENT, INC.; JAGRUTI 
    PANWALA, PRESIDENT AND CEO, WEALTH PROTECTION STRATEGIES

                   STATEMENT OF RITA MCCLENNY

    Ms. MCCLENNY. Chairman Brat, Ranking Member Evans, and 
other Subcommittee members. I am pleased to testify before you 
today representing Virginia Tourism Corporation, as Mr. 
Chairman indicated, and we are delighted also to be here to 
share with you the importance of this industry. I am also 
representing U.S. Travel today, which is a trade association 
representing all sectors of the national travel and tourism 
industry.
    And as you indicated, today is a part of National Tourism 
Week, so it makes today extra special. And, in fact, this week 
was put into law the legislation signed by President Reagan 34 
years ago. The mission of U.S. travel is to increase travel to 
the U.S. and within the U.S., which also yields another $2.4 
trillion in economic output annually and supports one in nine 
American jobs and makes travel the nation's top service export.
    According to the Small Business Administration, the travel-
dependent leisure and hospitality sector is the top small 
business employer. We are all on the same page as you guys have 
indicated, all these wonderful statistics.
    Some of our success in Virginia is legendary. Next year, 
our signature ``Virginia is for Lovers,'' 50 years 
commemorating, and one of the most highly recognized tourism 
brands in the world.
    The famed Inn at Little Washington and the Blue Ridge 
Foothills opened during the worst snowstorm of the decade in 
1978, and now is one of the crowned jewels of the lodging and 
dining scene nationally.
    Also nestled in an industrial neighborhood in Richmond, 
Virginia, Hardywood Craft Brewery has played a pivotal role in 
Virginia's boom of craft beer.
    As you well know, small businesses face recurring headwinds 
related to access to capital, attracting skilled employees, and 
overregulation that particularly impacts a small enterprise. Of 
particular interest to travel and tourism, small businesses is 
America's share of a global travel.
    Unfortunately, America's share of the global travel market 
has been declining. In 2016, international arrivals to the U.S. 
declined 2.1 percent. In order to reverse this decline, we 
respectfully urge your support for five key areas.
    Gentlemen, full funding of Brand USA, infrastructure 
modernization, lifting the cap on the passenger facility charge 
user fee, protecting U.S. open skies agreements, conveying a 
clear message of welcome for international travelers to 
America.
    Brand USA was created to help market the U.S. in this 
booming global travel market. Just last week, Oxford Economics 
reported that since 2013, Brand USA's efforts are directly 
responsible for increasing international travel by an 
incremental 5.4 million travelers. Despite Brand USA's success, 
we were concerned to learn that the recent budget agreement, 
diverted STA fees after 2020 away from Brand USA promotional 
opportunities.
    The return on investment from Brand USA is clear, 
especially for small businesses, and we hope you will join us 
in our work to sustain this critical work for Brand USA and the 
work of Brand USA.
    Without reliable infrastructure, small businesses could not 
operate, potential patrons will not visit. A key infrastructure 
barrier to the travel industry's growth and future 
competitiveness is the poor condition of our nation's airports.
    Last year, our two international airports in Virginia 
helped facilitate the travel of one million international 
visitors who spent $1.7 billion during their travels. The 
passenger facility charge is an indispensable tool for local 
communities to maximize efficiency, reduce project costs, and 
ensure fiscal responsibility. Adjusting the PFC ceiling would 
allow each airport authority to tailor its own PFC rate to fit 
local needs. We think this is really important.
    Akin to our need to modernize our airport infrastructure, 
we must also preserve more than 120 open skies agreements which 
have yielded hundreds of thousands of American travel and 
manufacturing jobs, billions of dollars in U.S. economic 
growth, and lower fares for travelers. A great benefit.
    We appreciate your leadership, Chairman Brat, on fostering 
airline operations and competition. We appreciate all you do 
for your constituents in Virginia. And at U.S. Travel, our 
motto is simple, ``Without security, there can be no travel.'' 
America needs to convey a clear global message. And while we 
aggressive pursue security, we still welcome overseas visitors 
to relax on our beaches and to close deals in our boardrooms.
    Finally, I would like to extend to you an invitation to all 
members to please join us at the Visit USA Coalition Meeting 
tomorrow at 11 a.m. in the Visitors Center. There, we will 
discuss more and unveil a document to restore the declining 
U.S. share of the global travel market. We hope you can partner 
with us with this Subcommittee and with this Congress to 
promote and advance America's travel and tourism industry. And 
it is a delight to be here with you today. Thank you.
    Chairman BRAT. Great. Thank you. Super.
    Our next witness is Mr. Steve Shur, President of Travel 
Tech in Arlington, Virginia.
    Travel Tech represents a variety of travel-related 
businesses, including short-term rental companies and travel 
search engines. Mr. Shur has over 20 years of experience in 
public affairs. And so thank you very much for being here with 
us this morning. We look forward to your testimony. Thank you, 
Mr. Shur.

                    STATEMENT OF STEVE SHUR

    Mr. SHUR. Thank you, Mr. Chairman. Chairman Brat, Ranking 
Member Evans, members of the Committee. It is a pleasure to be 
here with you today, especially during National Travel and 
Tourism Week.
    I am Steve Shur, President of Travel Tech. We are the trade 
association for online travel companies, short-term rental 
platforms, global distribution systems, and travel management 
companies.
    Now, decidedly, my members are not small businesses, but I 
recognize that today's Committee hearing is about the impact of 
travel and tourism on small business. And each of our members 
has a great story to tell with regard to how their contribution 
to the travel and tourism ecosystem helps small businesses.
    Our membership is really divided into three categories--
GDSs, online travel agents, and metasearch sites and short-term 
rental platforms. And I would like to just briefly address each 
of those categories and how they impact small businesses.
    I will start with GDSs. Global distribution systems are 
truly the unsung heroes of the travel and tourism marketplace. 
They quite literally create the technology that allows 
consumers and travel agents to comparison shop. To demonstrate 
that, for example, there are over 700 commercial airlines in 
the world, each with their own routes, schedules, fares. The 
GDSs take that information and aggregate it and make it 
available to travel agencies so that when they are serving 
their clients, or you are shopping for a flight on an online 
travel site, you are getting meaningful results in real-time. 
These are technology titans that operate behind the scenes. 
Many people have not heard of some of these brands, like Sabre, 
Amadeus, and TravelPort, but you certainly have benefitted from 
them if you have ever booked a flight via a travel agent, 
whether online or in the community.
    Speaking of travel agents, most travel agencies in the 
United States are small businesses and are powered by these GDS 
technologies. Travel agencies utilize the services of the GDSs 
to serve their clients, to make sure that they have all the 
information they need to make an informed choice. In fact, 98 
percent of travel agencies are small businesses. And Mr. 
Chairman, in Virginia, 70 percent of travel agencies have fewer 
than five people, and 95 percent of them employ fewer than 20. 
So truly small businesses that benefit from the great 
technology that these GDSs deploy.
    Without the GDS technology, these small business agents 
would have trouble servicing their clients. They might not know 
which flights are available on a particular route that their 
client needs, or they would have to visit multiple websites or 
make phone calls to multiple airlines to figure it all out. So 
the GDS technology gives them the power and the opportunity to 
make their business thrive. And so we are quite proud of how 
our GDS members help the small business community, particularly 
travel agencies.
    Our online travel agent members and metasearch sites, like 
Expedia and Priceline, Booking.com, Trip Advisor, Sky Scanner, 
help small businesses in a variety of ways. And I would like to 
just talk briefly about how that happens.
    Particularly, online travel agents inspire people to 
travel. They actually, with their marketing, advertising, 
promotions, and deals--many of you probably are subscribing to 
their emails and you see the pictures of the beaches and the 
mountains--they are actually inspiring people to get off their 
couches and book trips. Further, they are able to provide 
consumers with package deals where they can save money. And the 
research shows that when consumers book trips via online travel 
agents, they tend to spend more money than those who choose to 
book elsewhere. And the reason for that is that likely they 
have saved money on their booking in the first place, and so 
they have more disposable income to spend when they are on the 
road. And oftentimes those expenditures benefit small 
businesses in the localities where they visit.
    The second way that online travel agencies and metasearch 
sites benefit small businesses is really on behalf of 
independent hotels, small motels, independently owned 
properties. And in this dynamic, the small, independent 
properties have to compete with the major brands that have huge 
marketing budgets. And just by being listed on an online travel 
site, that independent hotel, which may not have worldwide 
marketing recognition, gets to compete with the major hotel 
brands. And so they are benefitting these small, independent 
hotels and small inns and bed and breakfasts by giving them the 
exposure. They are quite literally marketing those properties 
to the world.
    And so in that regard, our online travel agent members and 
metasearch members benefit those small businesses tremendously.
    Our short-term rental platforms, Airbnb, HomeAway, VRBO, 
Trip Advisor Vacation Rentals, is a relatively new environment. 
While vacation renting is nothing new, these platforms are new, 
and many people are taking advantage of the convenience and the 
access to short-term rentals that they have never had before. 
Not only do short-term rental visitors stay longer and spend 
more money benefitting communities, what is important to note 
about those travelers is they are often staying in areas that 
are not the traditional downtown tourist areas or convention 
center areas. They are benefitting small businesses in 
communities that traditionally have not seen economic benefit 
from travel and tourism. So they are expanding the circle of 
where tourism dollars are being spread.
    Secondly, they have created an entire new industry of 
cleaning companies, property managers, and software companies 
that are helping homeowners manage the process of renting out 
their homes.
    In conclusion, while our members are not small businesses, 
we are certainly on the frontlines with consumers. Our members 
benefit the travel and tourism ecosystem in a way that benefits 
small businesses beyond just stimulating more travel, but 
certainly giving them the tools that they need to thrive and 
grow.
    And with that, I am happy to answer any questions. Thank 
you very much for your time.
    Chairman BRAT. Thank you, Mr. Shur. Very good.
    Next, I would like to introduce Mr. Cam Brensinger, the 
Founder and CEO of Nemo Equipment, a 23 employee outdoor 
equipment company based in Dover, New Hampshire. Mr. Brensinger 
started Nemo after completing a degree in industrial design 
from the Rhode Island School of Design. And so thank you for 
being here with us today and for sharing your story.

                  STATEMENT OF CAM BRENSINGER

    Mr. BRENSINGER. Chairman Brat, Ranking Member Evans, and 
members of the Committee, thank you for having me here today.
    I started my company when I was 25 years old and a senior 
at the Rhode Island School of Design (RISD), studying 
industrial design. I was also working part time at MIT, funded 
by NASA, to develop a better space suit for human exploration 
on Mars.
    New England taught me to love outdoor adventures. When I 
was a senior in high school in Manchester, New Hampshire, I got 
permission to spend a month hiking the toughest sections of the 
Appalachian Trail and write about it. At Middlebury College in 
Vermont, I ran the rock climbing club and led countless trips 
climbing, hiking, and cavings in the mountains of Vermont. When 
I graduated from Middlebury, my only definitive plan actually 
was to climb Denali in Alaska, which three friends and I 
undertook in 1998.
    My experiences in the outdoors and my passion for physics 
and art ultimately led me to discover industrial design, and I 
found myself going back to design school after college on a 
mission to start my own company.
    I incorporated my new company, Nemo Equipment, in April of 
2002, and 3 days after graduation, opened our first office in 
New Hampshire to be near the wonderful places that shaped me 
passions.
    Today, Nemo has grown to a well-known, award-winning, 
international gear brand with 24 employees, actually, as of 
Friday. Nemo products are sold in 19 countries around the 
world, with significant market share in the U.S., Japan, South 
Korea, and a growing presence in Europe. We own more than 50 
pending and awarded patents and trademarks. We have been 
featured on the Discovery Channel, named by Time Magazine as 
among the best inventions of the year, and received 
international awards for product design. Our products are used 
by families for camping weekends, professional mountaineers 
attempting first descents, and by the top echelon of American 
Special Operation Forces.
    I am very proud to be here also as a board member of the 
Outdoor Industry Association. OIA is the leading trade group 
for the outdoor industry, representing more than 1,300 member 
companies, including manufacturers, suppliers, retailers, 
guides, and outfitters. The outdoor industry represents a 
recreation economy that includes $887 billion in annual 
consumer spending, with 79 percent of that from trips, travel, 
and tourism.
    The outdoor recreation economy also supports 7.6 million 
American jobs, and according to a recent study by the Bureau of 
Economic Analysis, the outdoor industry represents 2 percent of 
GDP. The BEA study also demonstrates that the outdoor 
recreation economy is growing at 3.8 percent, 1 percent faster 
than the U.S. economy as a whole.
    According to OIA's recently released congressional district 
level report, every community in every state in the country has 
a viable outdoor recreation economy. Chairman Brat, 
constituents in your district spend almost $1.5 billion on 
recreation on alone each year. Ranking Member Evans, your 
constituents spend nearly $900 million on recreation each year. 
Both districts are made up of consumers focusing on camping, 
trail sports, and fishing.
    These economies, like any, need infrastructure. As you 
know, the Land and Water Conservation Fund (LWCF) is due to 
expire at the end of this fiscal year. We ask Congress to 
please support reauthorization and full funding of the LWCF 
since maintaining our public lands is vital to the health of 
outdoor recreation, and LWCF benefits every county in the 
country.
    When people hear travel and tourism, they may not think of 
the complex global supply chains that bring to market the 
clothing and equipment that support travel. American businesses 
like mine provide coveted and high-paying jobs in engineering, 
design, marketing, advertising, financial, and sales, that 
support adventure travel. Our American outdoor brands are some 
of the most innovative and revered in the world.
    Many of our industries' jobs in sewing and assembly have, 
since the 1990s, moved abroad in search of an available and 
willing labor force, which means companies like mine end up 
paying high tariffs to bring out finished goods back into the 
country. In fact, outdoor companies pay disproportionately high 
tariffs. While average inbound tariff is less than 3 percent, 
the average tariff on outdoor products is 14 percent, and can 
be as high as 40 percent.
    Outdoor product manufacturers pay approximately $750 
million annually in import taxes to the U.S. Treasury. Duty 
relief on outdoor products not manufactured domestically can 
help lower costs, fuel innovation, and get more Americans 
outdoors. We ask for your support of the U.S. Outdoor Act that 
allows for more innovation by American companies, while 
protecting our industry's domestic manufacturers.
    Americans love the outdoors. Over half of all Americans 
enjoy outdoor activities every year. Whether close to home or 
at far away iconic places, the outdoor recreation economy is 
resilient and is growing faster than the economy as a whole. My 
business is just one example of thousands of companies that are 
creating highly desirable American jobs with access to healthy 
outdoor lifestyles and turning our shared love of being outside 
into a driving force in the U.S. economy.
    Thank you for the work that you do to support the people, 
places, and infrastructure that make outdoor adventure possible 
and allow it to be a major part of my life and a significant 
component of our country's heritage, identity, and economy. I 
hope this testimony will be of value to your Committee.
    Chairman BRAT. It was. Thank you very much. Great 
testimony.
    I would just like to recognize our Chairman, my boss came 
in the room, Chairman Chabot down at the end there. Welcome 
him.
    And then at this point I would like to now yield to our 
Ranking Member, Dwight Evans, for the introduction of the final 
witness.
    Mr. EVANS. Good morning.
    It is my pleasure to introduce Ms. Jagruti Panwala. I think 
I got that right.
    Ms. PANWALA. Yes.
    Mr. EVANS. Okay. The President and CEO of Wealth Protection 
Strategies in Bensalem, which my colleague who serves on this 
Committee who represents that district, Congressman 
Fitzpatrick.
    She has been the recipient of numerous industries and 
company awards, serves as the vice chairwoman of the Asian 
American Hotel Owners Association. She is a graduate of East 
Stroudsburg University in Pennsylvania, and she is testifying 
on behalf of the Asian American Hotel Owners Association, the 
largest hotel owners association in the world, nearly 18,000. 
That is extremely impressive.
    Again, you have the opportunity now to testify.

                  STATEMENT OF JAGRUTI PANWALA

    Ms. PANWALA. Thank you very much.
    Chairman Brat, Ranking Member Evans, and the members of the 
Committee, it is an honor to appear before you today.
    My name is Jagruti Panwala. My family and I are small 
business owners from Pennsylvania. We are independent owners 
and operators of five hotels in New York, New Jersey, and 
Pennsylvania. I am also the President and CEO of a financial 
planning company where we help small business owners reach 
their development goals. I also chair as a vice chairwoman of 
Asian American Hotel Owners Association, which is AAHOA.
    As you mentioned, AAHOA represents 18,000 members, and our 
members own one out of every two hotels in the United States. 
We employ over 600,000 workers, accounting for nearly $10 
billion in payroll annually. AAHOA proudly serves on the board 
of directors of the U.S. Travel Association, and is a member of 
the Visit U.S. coalition organizations that are leading the 
effort to expand travel and tourism within and to the United 
States.
    I am here to tell you about the state of America's 
wonderful travel industry, and it is fitting to have this 
discussion during National Travel and Tourism Week. Our 
industry drives economic expansion, job creation, and 
prosperity in the United States. The travel and tourism sector 
reaches nearly every corner of the country and is a top 10 
industry in nearly every state.
    There are four metrics I like to highlight to illustrate a 
tremendous economic impact of our industry. In 2017, according 
to U.S. Travel Association, the travel and tourism accounted 
for $2.4 trillion in economic output and supported 15.6 million 
American jobs. American workers directly employed in the travel 
industry earn nearly $260 billion in wages and the Federal, 
state and local government collected $165 billion in tax 
revenues from our industry.
    In the lodging sector, total U.S. room demand is higher 
than it has ever been before. The leading economic metrics for 
hoteliers, including occupancy, average daily rate, and revenue 
per available room, are expected to increase through 2018.
    For small business owners like me, and the vast majority of 
our members, this is amazing news. Small businesses account for 
83 percent of companies in the industry, and we are seeing the 
benefits of a robust economy and thriving travel sector.
    Travel and tourism sector small businesses contribute to 
their communities by creating jobs, training employees, and 
reinvesting in capital locally. In fact, the number one small 
business employer in the United States is the travel dependent 
leisure and hospitality sector. Forty percent of workers who 
begin their career in travel ultimately achieve salaries over 
$100,000. In addition, our industry provides a tremendous 
foundation for employees with less formal education. And when 
they are beginning their career in travel, achieve an average 
career salary of nearly $70,000, which is 5 percent higher than 
any other industry.
    While good things are happening now, there are, of course, 
some challenges. One of the biggest concerns we have is 
increasing gas prices. Higher gas prices mean higher costs, 
fewer travelers, and fewer trips. Another area we are watching 
closely is the trends of international travelers to the United 
States. These visitors spend nearly $4,500 and spend 18 nights 
per visit, amounting to hundreds of billions of dollars on 
travel and tourism.
    Recently, the Department of Commerce announced that their 
data in tracking international visitors may be wrong. I 
encourage that we follow this development to make sure the 
information we have is valuable so we as a business owner can 
make a sound decision.
    International visitors are critical for our national 
economy, our workforce, and local communities.
    Consequently, I ask us to review two important programs.
    The first one is Brand USA, and the second one is the Visa 
Waiver Program. Since 2013, Brand USA has encouraged millions 
of people to come to the United States, which has generated 
nearly $40 billion in revenues and supports over 50,000 
American jobs. I am hopeful that it could be reauthorized in 
its current form with the strong bipartisan support like it has 
been in the past.
    The Visa Waiver Program is also important. It enables 
travelers to visit the United States without first obtaining a 
visa. The trips are limited and include security measures to 
protect against misuse by bad actors. I urge you and your 
colleagues to enhance and expand the Visa Waiver Program.
    Finally, the new tax law is important to small business 
owners. Small business confidence is growing and we are 
creating new jobs, increasing wages, and expanding our 
businesses to help ensure a thriving outlook for America's 
travel and tourism industry. Please make sure the tax relief 
for small business is a permanent solution.
    In conclusion, Chairman Brat, Ranking Member Evans, and the 
members of the Committee, I thank you for your time today and 
allowing me to share my story. And I wish you a happy National 
Travel and Tourism Week. Thank you.
    Chairman BRAT. Thank you very much.
    With that, I think we will open up to questions. Anyone 
have to leave? Anyone have pressing time constraints on them? 
Why do you not go ahead? Why do you not lead us off?
    Mr. Curtis, I yield to you for the first round of 
questions.
    Mr. CURTIS. Thank you, Mr. Chairman, and Ranking Member 
Evans, and this distinguished panel.
    Although I spent 8 years in Virginia and experienced many 
of the things you discussed, my district is in Utah. And many 
of you will know Utah for its amazing natural landmarks and 
world-renowned recreational activities.
    In my district, people travel from all over the world to 
arches, to some of the greatest snow on earth. Just to make you 
a little bit jealous, from my home, within 60 minutes, I can 
reach 12 ski resorts. Several years ago, I wanted to make a 
point. I traveled 15 minutes from my home in one direction and 
snow skied. On the same day, traveled 15 minutes the other 
direction and waterskied. So I welcome you all to come to Utah 
and see what we have got there.
    This kind of travel and tourism significantly impacts our 
economy. Every year in my district, there is approximately $2 
billion spent on outdoor recreation. We have 288 outdoor 
companies in my district. And because of this, it is important 
that we continue to support the state and local recreational 
economies. And I am pleased to be part of this Committee today 
and be here with you.
    Mr. Brensinger, you mentioned in your testimony the high 
import tariffs outdoor companies faced. I think you said as 
high as 40 percent, which caught my attention, and the urgent 
need for tariff relief. How does that impact your business? And 
how would lower tariffs help fuel innovation and, specifically, 
job growth?
    Mr. BRENSINGER. Thank you very much, representative, for 
the question. And I have spent quite a bit of time in Utah. 
Twice a year for a long stretch for our retailer show and many 
times personally to go to Zion and incredible places in your 
state.
    As far as tariffs go, our market is extremely competitive 
at this point. A lot of the big famous brands in our industry 
have grown into significant corporations and are seeking growth 
as they move into larger markets of creation. And that makes a 
very price competitive landscape. So for us, you know, we pay 
between 4.5 and 9 percent tariffs on our particular goods. As 
you mentioned, our industry in general pays as high as 20 or 
even 40 percent on footwear and apparel. I would like to assure 
you that a relief of tariffs would not end up in my pocket. It 
would result in us being able to invest more in R&D, to make 
our products more price competitive in the market. There are so 
many forces at play today to be a successful business like 
ours. Every basis point of margin makes a big difference, and 
ultimately, outdoor equipment is expensive for the American 
consumer to purchase, and good equipment is really essential, 
as you know, to have great experiences in the outdoors. So I 
think if we want to grow outdoor recreation in general, 
lowering tariffs will translate into increasing participation.
    Mr. CURTIS. And we could then assume job growth as well 
locally?
    Mr. BRENSINGER. Yes, sir.
    Mr. CURTIS. Could you touch just a little bit on the global 
supply chain impact on your industry and job growth as well?
    Mr. BRENSINGER. Yes, thank you.
    Yeah, so we, in my company, we have 24 employees that cover 
a range of jobs from design, engineering, marketing, customer 
service, operations. In the entire kind of global supply chain 
of our business, from the folks who produce the yarns and weave 
the textiles, all the way to the folks that sell the goods 
ultimately, Americans represent the best, highest paying, most 
innovation-focused jobs in that whole continuum. And so for us, 
you know, I would say when I started the company I actually 
really wanted to do our manufacturing in the U.S., partly for 
reasons of patriotism and partly for reasons of pragmatism. I 
wanted to be able to visit the factories and learn with them 
and be part of the development process. So for the first few 
years of Nemo, I spent a lot of time visiting with domestic 
sewing manufacturers. And ultimately, I did learn to sew from a 
couple cottage industry sewers in New Hampshire. But at the end 
of the day, the sewing industry had compressed so much over the 
decade since the `90s, I did not see a viable path for our 
manufacturing in the states, and ultimately, kind of tapped 
into the Pacific Rim supply chain for sewing, where really the 
best sewing factories are.
    And then a few years later, we met some Navy SEALs and 
developed a military component to our business which, because 
the Barry Amendment caused us going, searching again for 
domestic sewing. And to be honest with you, what I found in 
juxtaposing these two supply chains, is sewing in the U.S. is 
about 80 percent the quality and twice the price. So the 
reality is for us to be competitive in the market today, 
although we do all of the most value-adding jobs in the states 
as far as intellectual property and the creativity and 
innovation, the sewing, per se, really has to come from abroad.
    Mr. CURTIS. Thank you.
    I am out of time, but let me just end with a comment that 
it has been my experience that in Utah, your industry is 
overflowing with innovation and it is pretty amazing and fun to 
watch. Also, it has been my experience that some of our most 
socially responsible companies are in your industry in my 
district. So thank you very much.
    Mr. BRENSINGER. Thank you, sir.
    Chairman BRAT. Thank you, Mr. Curtis.
    I will yield to our Ranking Member, Mr. Evans.
    Mr. EVANS. Thank you, Mr. Chairman.
    Ms. Panwala, I want to go something you said about a 
challenge. And I sort of heard Mr. Brensinger say forces that 
affect this whole industry. So you seem like you are both 
saying the same. And you are talking about energy costs. And 
obviously, today, the President is on the verge of nixing the 
Iran deal. Obviously, that has huge implications. So talk to me 
a little bit about the energy and the issue from your 
perspective. You talk about gas costs, what kind of impact?
    Ms. PANWALA. So I will give you my perspective, obviously, 
as just a business owner. You know, whenever there is a cost of 
anything which affects travel, it affects the hospitality 
industry. So if the gas prices are rising, and people who are 
flying into a local area or even going to Disney, it affects 
them. So I think as a business owner, our concern is that 
whenever there is a cost of travel, that it affects the tourism 
as it would. And that certainly is a concern. If the gas prices 
are increasing, then certainly domestic travel, which is almost 
80 percent of what we depend on, is going to affect, besides 
international travel.
    Mr. EVANS. But the forces, why do you not speak a little on 
that?
    Mr. BRENSINGER. Yeah. Thank you, sir, for the question.
    What I was referring to is it is a hypercompetitive 
marketplace today. And for brands like ours to be successful, 
we really have to be Omni channel businesses. We have to have 
an online component. We have to have specialty retailers. We 
have to have large specialty retailers. We have to do a lot of 
things well so we can be wherever the customer wants to find 
us. And that relates back to the tariff issue in that it is 
difficult today. The way the world works, manufacturers can 
distribute products straight through major online retailers, 
some in particular, to the consumer, in a way that is making 
being a high-end brand challenging. And so for us, it is 
difficult to maintain the margin that you need to grow at 35 
percent per year, and tariff reduction would make a big 
difference in that.
    Mr. EVANS. Mr. Shur, your testimony talked about AirHubs 
and other short-term rental companies helping middle class 
families get by, but a lot of reports have shown that AirHubs 
in particular are driving up housing prices and making it 
harder for families to make ends meet. So which is right?
    Mr. SHUR. So the short-term rental industry, again, is not 
new. These platforms are new, and travelers are finding that 
short-term rental accommodations are more accessible than ever 
before. The claim that short-term rentals are impacting housing 
stock or housing prices is simply not the case. If you look at 
the total number of housing units in any particular city and 
compare that to the number of short-term rentals that are being 
offered in that market, it is usually a very, very small 
percentage of the total housing costs.
    One of the examples I like to point out is in the San 
Francisco area, for example, which has notoriously high housing 
costs. Airbnb and the existence of the short-term rental 
platforms were not the cause for high housing costs in San 
Francisco. It has been that way for a very long time. In fact, 
short-term rentals have enabled homeowners to earn a little 
extra income so that they can afford to stay in their homes. So 
we believe that the short-term rental industry is providing 
great value and great benefit to these communities and not 
impacting housing stock or affordable housing in any way.
    Mr. EVANS. Ms. McClenny, can you speak to, you know, 
particularly in your position as you look at the 50 states, the 
issue about diversity and inclusion in the hospitality 
industry? Can you talk a little bit about that? Because I will 
tell you my background. Many years I spent on the board in 
Philadelphia on the Convention Visitors Board for many years. 
And there was a person in Philadelphia by the name of Ms. 
Young, who used to run the convention center. So can you talk a 
little bit about the aspect of inclusion and diversity in the 
industry?
    Ms. MCCLENNY. Yes, Congressman Evans. Thank you.
    Tourism is America's best first job. So as Americans look 
for employment, the tourism industry is very diverse, has a 
wide range of opportunities in many industries that come as a 
part of this service industry, like technology. Services to 
small business that have to do with transportation, that have 
to do with media production, planning. So every spectrum that 
one can imagine. And our colleges now have tourism programs. So 
we find that for a wide range of people, the tourism and 
hospitality industry provides an entry into employment. And 
from that, people are going on to get advanced degrees. They 
are going on to have very wonderful salaries and the 
opportunity to raise their families and live wherever in these 
50 states in the United States that they choose to live because 
tourism is located in every single state. And I am happy to say 
that it is a growing industry. It is also an industry that 
rebounds quicker than others back to post-recession times. So 
it has a wide range of benefits, and it is a lot of fun.
    Mr. EVANS. Thank you.
    Mr. Chair, I yield back the balance of my time.
    Chairman BRAT. Thank you, Dwight.
    I would like to yield to my colleague from Pennsylvania, 
Mr. Fitzpatrick.
    Mr. FITZPATRICK. Thank you, Mr. Chairman. And welcome to 
the panel.
    Ms. Panwala, good to see you from business-friendly 
Bensalem. Welcome to D.C.
    Mr. Shur, I want to expand on a question of my colleague, 
Dwight Evans. Interested to hear about the impact that 
companies like Airbnb, like HomeAway, have on small business 
hotels. Not on home prices, but on small business hotels. 
Because it seems to me that the short-term rentals that are 
offered by these companies are in many ways similar to hotels, 
and yet they are not subject to the same regulations. Local 
regulations, Federal, ADA regulations, how is that not unfair 
competition?
    Mr. SHUR. Thank you for your question, Congressman.
    I will start by setting the stage. So the hotels are 
experiencing the highest occupancy rates in history in the past 
several years. What we are finding is that short-term rentals 
are inspiring people to travel more and travel more often, and 
sometimes that means they will stay in a hotel and sometimes 
that means they will stay in a short-term rental. How short-
term rental platforms are impacting small hotels, I would say 
they are impacting them very positively. Many small inns, bed 
and breakfasts and actually listing their properties on short-
term rental platforms now because that is where consumers are 
choosing to shop.
    Regarding the regulatory environment for short-term 
rentals, it is our belief that if someone chooses to rent out 
their home, that it is still a private residence and it is not 
a commercial entity that is subject to all the same conditions 
as a commercial building, namely a hotel, and therefore, as far 
as the negative impact on hotels, we do not believe that to be 
the case. I think that from a competitive standpoint, the 
hotels have tried to make more of that issue than actually 
exists because, again, it is a private residence being made 
available to travelers. It is not a hotel at the end of the 
day.
    Mr. FITZPATRICK. It is not a hotel, but if one is subject 
to regulation and the other is not, and yet they are 
essentially offering the same service, how is that not unfair 
competition?
    Mr. SHUR. Well, there are a couple of components to that. 
On the issue of taxation, we believe that short-term rentals 
are taxable, and that should be the responsibility of the 
homeowner and they should pay the same occupancy tax that the 
hotels do.
    With regard to the regulatory environment, that is really 
up to the locality, and it is fundamentally a zoning and 
private property rights issue to determine if and how a 
municipality chooses to deem someone's home a commercial 
property. We do not believe that to be the case. A person's 
residence is typically in a residentially zoned area, not a 
commercial area. And so to apply commercial regulatory schemes 
to residences we believe is not appropriate.
    Mr. FITZPATRICK. How about the ADA?
    Mr. SHUR. Well, again, I do not know if by just renting out 
your home, whether it is a beach house, a lake house, or a 
condo in the city, should require you to completely renovate 
your home to make it compliant with the Americans with 
Disabilities Act because, again, it is a home. And ADA 
typically does not apply to residences. And therefore, just 
because someone is staying in that home, whether they are 
paying for it or whether it is your relative, does not 
necessitate the need for ADA compliance.
    Mr. FITZPATRICK. One other question, Mr. Shur. Looking my 
notes here, we met with our staff. It is my understanding that 
Expedia and Priceline, who control 95 percent or so of the 
market for online travel agencies, charge their highest rates 
to independent hotels. So is that true? You know, independent 
hotels who are not part of a chain and are often small 
businesses and family-owned businesses, we are being told that 
these companies charge these small businesses 15 to 30 percent 
more of each hotel room booked on their sites. Can you comment 
on that?
    Mr. SHUR. Well, I cannot speak directly to the terms of the 
agreements between independent hotels and online travel sites. 
But what I can speak to is the great benefit that small 
properties get from being listed on an OTA. Cornell University 
did a study commonly known as the Billboard Effect, and they 
found that just by being listed on an online travel site, a 
property, whether independent or a major brand, sees a 9 
percent increase in direct bookings. What that means is people 
are shopping for rooms on online travel sites, then leaving the 
online travel site and going to book direct. So that exposure 
that a small independent property gets is invaluable in terms 
of their ability to compete with the major brands. And so I 
would suggest that, again, I do not know the terms of the 
agreements and whether the rates the online travel sites have 
with the independent properties, but the benefit is absolutely 
tremendous. They are literally marketing those properties to 
the world where travelers typically would not have heard of 
those properties when shopping for accommodations in a given 
market.
    Mr. FITZPATRICK. My time is expired.
    Mr. Chairman, I yield back.
    Chairman BRAT. A lot of you mentioned international 
competition, and the decline, the relative decline of U.S. 
share globally, et cetera. If you could all just comment. We 
will start with Rita and work on down. If you could just all 
comment. I mean, when I started teaching economics 25 years 
ago, India and China, the average income per capital was 1,000 
bucks. Right now it is growing through the roof. And so is that 
loss in share just due to the fact that they are getting online 
capabilities and they have got great sites and can market with 
us. And so our relative share is going down. Or is it more 
problematic, linked to infrastructure, something we are doing 
wrong where we can make some inroads to compete better. Or both 
of those, et cetera.
    Rita?
    Ms. MCCLENNY. Mr. Chairman, it is a combination of factors. 
It is access to the skies. With the Open Skies Agreement, the 
Visa Waiver Program. What we would like the landscape to look 
like is greater access to smaller and regional airports for 
flights to come in, whether they be domestic carriers or 
foreign carriers. Also, in terms of the decline, it is a very 
competitive landscape. So an organization like Brand USA, 
really has an opportunity to have a high impact on promoting 
travel in the United States. And a lot of countries have had 
advertising programs for a number of years. So we are really 
catching up, and we really are trying to stabilize that 
opportunity for every city, community, destination, marketing 
organization around the country, to have an equal access to 
market through a lot of the co-ops and a lot of, frankly, the 
buy downs that Brand USA's buying power gives them to have the 
ability to market themselves to international visitors.
    Mr. SHUR. I agree there is a combination of factors. I 
think from a broad standpoint, our industry views this issue as 
what type of message are we sending the world in terms of 
America being a great place to visit and making sure that all 
the security boxes are checked, and ensuring the traveling 
public globally that America is still open for business and a 
great place to visit with access to uncounted attractions and 
opportunities for visitors to come and enjoy this country. So 
it is about a global message and making sure that we are 
continuing to be vigilant on security, but ensuring that the 
message is being sent to the rest of the world that America is 
still a great place to visit.
    Mr. CHABOT. Is this a kind of constant, gradual decline 
over a decade or two? Or in recent years has there been a sharp 
drop off? Does anyone know the answer to that one? I mean, what 
are we looking at timeframe here?
    Ms. MCCLENNY. I would say it is recent. Yeah. Because up 
until 2016, we were increasing our inbound travel from 
international visitors.
    Mr. CHABOT. What is the decline?
    Ms. MCCLENNY. 2.1 percent.
    Mr. CHABOT. Percent decline?
    Ms. MCCLENNY. Yes.
    Mr. CHABOT. And what was the growth rate prior?
    Ms. MCCLENNY. I do not know the exact number but it was 
closer to a 5 percent growth.
    Mr. CHABOT. Growth rate that we were----
    Ms. MCCLENNY. Yeah, that we were on a trajectory for. Yes. 
So it has been a significant impact, as you can tell.
    Mr. CHABOT. Ms. Panwala, do you want to----
    Ms. PANWALA. I would say the same thing. It is a 
combination of multiple things, but I think perception outside 
the United States is that the United States does not welcome a 
lot of visitors, which I think is a perception more than a 
reality. So I think if we change our perception outside the 
world, outside the United States, it would certainly help. But 
yeah.
    Mr. BRENSINGER. Chairman, thank you for the question. I 
would say that I represent maybe a slightly different 
perspective, which is maybe a diamond in the rough there. I 
think outdoor participation in general has been steady. In some 
categories it is growing. I think we should not forget that we 
have incredible outdoor spaces in this country which are 
tremendous assets and huge draws for tourism. In fact, we had 
331 million people visit our national parks last year. I think 
that is an important reminder that we need to continue to 
invest in those spaces. And I noted that we have a $12 billion 
backlog right now in maintenance of our national parks. I think 
we should keep that in mind.
    Another thing I wanted to just very quickly point out is 
the interrelationship of gear to tourism, because I mentioned 
that we represent $887 billion of consumer spending. About $700 
of that is trips, travel, and tourism. The balance of that, 
almost $200 billion, is around gear. And the good news is, as I 
mentioned earlier, our American brands are dominant in that 
global space.
    Chairman BRAT. Great.
    And open to anyone who knows the answer. Where has the 
decline been? Has it been in any region more pronounced than 
other regions, the drop-off? Any sectors more than others? From 
any regional area globally that the drop-off is recognizable? 
So there is a 1 or 2 percent decline. Where is it focused here? 
Where is the decline coming from? Have we identified that?
    Ms. MCCLENNY. Mr. Chairman, when travelers look at 
potential vacation sites, they are looking at the globe, 
really. So what we have seen is the increase in places like 
Canada, Saudi Arabia, Spain, Australia, up 20-plus percent. So 
on a very competitive landscape, to get the traveling families' 
attention, it really is about where can I go that I feel 
welcomed? Where can we go, because we are spending our precious 
family dollars and this precious time? People do not want to 
bring that stress or anxiety to a vacation experience. So we 
have seen a decline in inquiries, and initially, when this 
negative sentiment was happening, it did not impact the actual 
travel. But now we see that it has impacted the actual 
transactional retail side of the business where people are 
making decisions to go to other countries. And that is why it 
is so important that we remain competitive, that we keep our 
foot on the pedal through Brand USA and through our airport 
accessibility to stay welcoming and friendly, to have wait 
times decreased through our Border Patrol, to have the latest 
and greatest technology so that people have, again, easy 
access. And it is an impression that people have, and it is 
something that we can turn around. It is doable. And I think 
that if we can just stay focused and we can, again, present 
ourselves in the most positive light, that people will return 
in droves.
    Mr. EVANS. Like Virginia is for Lovers.
    Ms. MCCLENNY. Like Virginia is for Lovers.
    Mr. EVANS. That is right.
    Chairman BRAT. And I just do not know the basic facts here, 
so that is kind of why I am probing. Is this a decline of folks 
coming here or a decline of folks coming here relative to us 
going there? Or is it just an absolute decline in folks coming 
here from abroad?
    Ms. MCCLENNY. It is a decline of international travelers 
from nondomestic, non-U.S. locations coming to the U.S. Yes. 
Yes.
    Chairman BRAT. Coming to the U.S. Okay, great. Great.
    Dwight, did you have any follow-up?
    Mr. EVANS. No.
    Chairman BRAT. I will just close on this, because this is 
the Small Business Committee. If you had to give us one 
recommendation to try to incentivize small business to be more 
helpful, et cetera, in your industry, what would it be?
    Why do we not start at Ms. Panwala? I do not want to catch 
you off-guard. If anybody wants to zip in.
    Ms. PANWALA. No, I would say the tax reform that we are 
working on currently right now, continue capital access to 
small business owners. Continue promoting travel and tourism, 
domestic and internationally. Because, like I said, the small 
businesses comprise 83 percent of all the companies in the 
industry. So as much as you can help small businesses, they 
will always reinvest back into the economy by creating more 
jobs, hiring more employees, and also reinvesting by building 
and purchasing more of the hotels. So as much as we can make it 
easier for small business owners to reinvest, that would be 
something that I would urge that we consider.
    Mr. BRENSINGER. Thank you, Chairman.
    Pretty simple for us. Two parts. One is we have no outdoor 
industry without public lands. So in general, supporting our 
beautiful outdoor spaces is paramount. Renewal of LWCF is one 
of many concrete ways to do that. The other is, and this really 
hits home for me is, again, the tariff relief issue through 
multilateral or bilateral trade agreements. MTBs, the GSP 
program, or individual pieces of legislation, like the U.S. 
Outdoor Act, that allows us to give consumers the best value in 
outdoor gear and helps support innovative businesses like my 
own.
    Mr. SHUR. I think the benefits of the travel and tourism 
economy on small businesses are clear. I would suggest that 
anything we can do to invest in our travel and tourism economy, 
whether it is Brand USA, whether it is airport infrastructure, 
national parks, all those things contribute to stimulating the 
travel and tourism economy, which is ultimately going to 
benefit small businesses across the country.
    Ms. MCCLENNY. Mr. Chairman, we have multiple drivers that 
really move the needle, and really, Brand USA is power packed 
because it is the multiplier effect of those dollars that are 
collected that are invested into campaigns. Access to capital 
for small businesses and job creation through small business is 
the creator of a travel economy. And that travel economy 
contributes so much to the USA.
    Chairman BRAT. Great. Thank you very much.
    Dwight, any? Grand slam, all right.
    Thank you all very much for being with us. Very 
informative. I learned a ton. Thank you for making the trip and 
sharing your testimony with us. Thank you. Have a great week.
    I ask unanimous consent that members have 5 legislative 
days to submit statements and supporting materials for the 
record.
    Pause for objection.
    Without objection, so ordered.
    You like that? That was humor, if you did not get that.
    Without objection, so ordered.
    This hearing is now adjourned.
    Thank you all very much.
    [Whereupon, at 12:02 p.m., the Subcommittee was adjourned.]
    
    
                            A P P E N D I X
                            
                            
                            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                            
                            


                                 <all>
</pre></body></html>
